HHS/OIG, Audit -"Audit of Payments for Medicaid Services to Deceased Beneficiaries - October 1, 1998 Through
September 30, 2001 - New York State Department of Health,"(A-05-03-00019)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Payments for Medicaid Services to Deceased Beneficiaries - October 1, 1998 Through September 30, 2001 - New
York State Department of Health," (A-05-03-00019)
October 20, 2004
Complete
Text of Report is available in PDF format (549 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine the amount of Medicaid overpayments resulting from providers billing for
medical services for dates after the beneficiaries’ death.  We found that for the period October 1, 1998 through
September 30, 2001, the New York State Department of Health did not identify all payments for medical services provided
after death.  In a statistical sample of 100 paid claims, where the beneficiaries’ death occurred within our
audit period, we found 5 payments amounting to $401 for services billed to Medicaid beneficiaries after their deaths.  We
also found 24 additional payments for which the beneficiary had multiple indications of death. Based on the projected results
of our statistical sample, we estimate that $6.7 million in payments were made to beneficiaries with multiple indicators
of death.  The lack of access to death certificates prevented us from making a conclusive determination of the amount
of overpayments.  We recommended that the State agency determine whether the beneficiary died prior to the Medicaid
provider's billed date of service and recover any overpayments,  expand data sharing between the State agency’s
and New York City’s Medicaid and Vital Records Offices, and consider using the SSA death file to improve data matching
and to enhance identification of Medicaid deceased beneficiaries.  New York officials generally agreed with the recommendations
and initiated corrective actions.